JUNE 8, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




     NASA’S MANAGEMENT OF THE MARS SCIENCE
              LABORATORY PROJECT




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-019 (ASSIGNMENT NO. A-10-007-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ATLO         Assembly, Test, and Launch Operations
FY           Fiscal Year
IPAO         Independent Program Assessment Office
JPL          Jet Propulsion Laboratory
MMRTG        Multi-Mission Radioisotope Thermoelectric Generator
MSL          Mars Science Laboratory
NPR          NASA Procedural Requirements
P/FR         Problem/Failure Report
SAM          Sample Analysis at Mars
SA/SPaH      Sample Acquisition/Sample Processing and Handling


                                                                   REPORT NO. IG-11-019
JUNE 8, 2011




                                                                                     OVERVIEW

                           NASA’S MANAGEMENT OF THE
                         MARS SCIENCE LABORATORY PROJECT
                                                                                       The Issue

  The Mars Science Laboratory (MSL), part of the Science Mission Directorate’s Mars
  Exploration Program (Mars Program), is the most technologically challenging
  interplanetary rover ever designed. This NASA flagship mission, whose life-cycle costs
  are currently estimated at approximately $2.5 billion, will employ an array of new
  technologies to adjust its flight while descending through the Martian atmosphere,
  including a sky crane touchdown system that will lower the rover on a tether to the
  Martian surface. 1 Contributing to the complexity of the mission are the Project’s
  innovative entry, descent, and landing system; the size and mass of the rover (four times
  as heavy as the previous Martian rovers Spirit and Opportunity); the number and
  interdependence of its 10 science instruments; and a new type of power generating
  system.

  Figure 1. Artist’s Concept of the Mars Science Laboratory Rover on the Surface of Mars




  Source: http://marsprogram.jpl.nasa.gov/msl/images/PIA09201-br2.jpg (accessed May 4, 2011).

  1
      Flagship missions are missions with costs exceeding $1 billion.



REPORT NO. IG-11-019
                                                                                                                                                 OVERVIEW



     The primary objective of the Mars Program is to determine whether Mars has, or ever
     had, an environment capable of supporting life. In pursuit of this objective, the MSL
     rover – known as Curiosity – will assess the biological potential for life at the landing
     site, characterize the geology of the landing region, investigate planetary processes that
     influence habitability, and analyze surface radiation. NASA’s Jet Propulsion Laboratory
     (JPL) is responsible for development and management of the MSL Project.

     Due to planetary alignment, the optimal launch window for a mission to Mars occurs
     every 26 months. MSL was scheduled to launch in a window between September and
     October 2009. However, in February 2009, because of the late delivery of several critical
     components and instruments, NASA delayed the launch to a date between October and
     December 2011.

     This delay and the additional resources required to resolve the underlying technical issues
     increased the Project’s development costs by 86 percent, from $969 million to the current
     $1.8 billion, and its life-cycle costs by 56 percent, from $1.6 billion to the current
     $2.5 billion. If the Project is delayed to a late 2013 launch window, NASA’s costs would
     further increase, at least by the $570 million that would be required to redesign the
     mission to account for differences in planetary alignment and the Martian dust storm
     season.

     The following timelines show the Project’s phases, major milestones (Figure 2), and life-
     cycle cost estimates (Figure 3).

                                           Figure 2. MSL Project Timeline Overview
                                                           6/1/2007                                                   11/25/2011
                                                   Critical Design Review                                               Launch

           10/28/2003                       6/20/2006                               6/18/2009                 4/27/2011      8/1/2012
     Mission Concept Review         Preliminary Design Review                   Rebaseline Approval        Pre-Ship Review Land on Mars


                 September 2003 - September 2006                      September 2006 - December 2011                           December 2011 - December 2014
                      Formulation and Design            Development (Final Design, Fabrication, Integration and Testing)                Operations


       September 2003                                                           2/23/2009                                                                December 2014
                                                                New Cost and Schedule Baseline (Rebaseline)




ii                                                                                                                            REPORT NO. IG-11-019
OVERVIEW



                                       Figure 3. MSL Project Life-Cycle Cost Timeline
                                                                                                6/2009
                                                                                $2.3 billion life-cycle cost estimate
                                                  8/2006                                                1/2010
                             initial life-cycle cost estimate of $1.6 billion           $2.4 billion life-cycle cost estimate


                September 2003 - September 2006                          September 2006 - December 2011                                   December 2011 - December 2014
                     Formulation and Design                Development (Final Design, Fabrication, Integration and Testing)                        Operations


      September 2003                                                                                             11/2010                                            December 2014
                                                                                             Additional $71 million requested (to $2.5 billion)




  In light of the importance of the MSL Project to NASA’s Mars Program, the Office of
  Inspector General conducted an audit to examine whether the Agency has effectively
  managed the Project to accomplish mission objectives while meeting revised cost and
  schedule projections. See Appendix A for details of the audit’s scope and methodology.

                                                                                                                                                       Results

  We found that the MSL Project has overcome the key technical issues that were the
  primary causes of the 2-year launch delay. Additionally, as of March 2011 all critical
  components and instruments have been installed on the rover. Project managers expected
  to complete integration of equipment by May 2011 and ship MSL to Kennedy for flight
  preparation by June 2011.

  However, of the ten issues Project managers identified as contributing to the launch
  delay, as of March 2011 three remained unresolved: contamination of rock and soil
  samples collected by the Sample Acquisition/Sample Processing and Handling
  (SA/SPaH) subsystem and development of flight software and the fault protection
  systems. 2 The resolution of these and other issues that may arise during final integration
  is likely to strain the already limited margin managers built into the Project’s schedule to
  allow for unanticipated delays. Moreover, since November 2009 this schedule margin
  has been decreasing at a rate greater than planned.

  In addition, approximately 1,200 reports of problems and failures observed by Project
  personnel remained open as of February 2011. If these reports are not resolved prior to
  launch, there is a possibility that an unknown risk could materialize and negatively affect
  mission success.

  Finally, since the 2009 decision to delay launch, the Project has received three budget
  increases, most recently an infusion of $71 million in December 2010. However, in our
  judgment because Project managers did not adequately consider historical cost trends

  2
      Fault protection enables an instrument or system that does not operate as expected to operate at a reduced
      level rather than fail completely.



REPORT NO. IG-11-019                                                                                                                                                      iii
                                                                                                        OVERVIEW



     when estimating the amount required to complete development, we believe the Project
     may require additional funds to meet the 2011 scheduled launch date.

     Remaining Unresolved Technical Issues. Although Project managers have overcome
     the majority of technical issues that led to the launch delay, as of March 2011 three
     significant technical issues remain unresolved. In addition, management is evaluating the
     mission impact of unexpected degradation of the MSL’s power source, the Multi-Mission
     Radioisotope Thermoelectric Generator (MMRTG). 3

     One major issue contributing to the 2-year delay was the late delivery of the rover’s
     SA/SPaH subsystem, which will acquire soil and rock samples from the Martian surface
     and deliver them to other instruments on the rover for analysis. During testing of the
     SA/SPaH, managers discovered particulate contamination of samples. Program managers
     told us that this issue would not present a mission-level risk because any contaminants
     could be filtered through data processing. As of March 2011, Project managers said they
     have identified and validated a method to minimize contamination of samples and have
     nearly completed implementing the solution. However, we remain concerned because
     remaining work on the SA/SPaH is not due to be complete until June 2011, when the
     rover is due for delivery to Kennedy Space Center for final integration and assembly.

     The two other major unresolved issues are the development of flight software and fault
     protection systems. The onboard computer will use the flight software to direct MSL’s
     flight. The fault protection system is an engineering design that will enable MSL’s
     instruments and equipment that do not perform as expected to continue operating at a
     reduced level rather than fail completely.

     As early as May 2009, MSL’s Standing Review Board expressed concern about delays in
     development of flight software and fault protection systems and we are concerned that
     their development remains incomplete. 4 As of March 2011, the majority of the software
     needed for launch, cruise, entry, descent, and landing was developed. However, the
     software was not expected to be delivered until May 2011 and Project managers stated
     that work on software required to operate the rover on Mars would be completed after
     launch. In addition, as of March 2011, 13 of the 16 necessary fault protection related
     tasks had been completed and the remaining 3 were in progress.

     Because of technical issues related to these three and other items, Project managers must
     complete nearly three times the number of critical tasks than originally planned in the few
     months remaining until launch. As shown in Table 1, Project managers had planned to
     have all critical tasks (except for Kennedy Space Center operations) completed by April
     3
         The MMRTG provides power by the natural degradation of the radioactive material, plutonium-238
         dioxide. The material has naturally decayed during the 2-year launch delay. In addition, environmental
         testing has shown some power degradation anomalies that are yet to be resolved.
     4
         The Standing Review Board is an outside group of experts convened by NASA to monitor the status of a
         program or project. The Board periodically conducts independent reviews of performance related to cost,
         schedule, technical, and other risks.



iv                                                                                        REPORT NO. IG-11-019
OVERVIEW



  2011. However, when they revised the schedule in November 2010, that date slipped by
  3 months to July 2011. Furthermore, the February 2011 revision shows that seven critical
  tasks have been further delayed. Coupled with the decreasing schedule margin described
  below, we are concerned that management may be pressured to reduce mission
  capabilities in order to avoid another 2-year delay and the at least $570 million in
  associated costs.


                     Table 1. Critical Tasks for Completion Prior to Launch

                                                 Planned Completion Date

      Task                        Feb. 2009 Plan      Nov. 2010 Plan    Feb. 2011 Plan

        Mechanical               June 2010            January 2011      March 2011
        Payload                  May 2009             January 2011      May 2011
        SA/SPaH                  February 2010        May 2011          June 2011
        Avionics                 June 2010            March 2011        May 2011
        Launch Vehicle           April 2011           April 2011        April 2011
        Flight Software          June 2010            May 2011          May 2011
        Assembly, Test, and
                                 January 2011         May 2011          June 2011
         Launch Operations
        Testbeds                 April 2010           June 2011         July 2011
        Guidance, Navigation,
                                 December 2010        July 2011         July 2011
         and Control
        Kennedy Operations       September 2011       November 2011     November 2011
        MMRTG                    April 2011           April 2011        June 2011


  Accelerated Schedule Margin Decrease. To allow for unanticipated delays, NASA
  routinely builds a margin of extra time into project development schedules. We found
  that for MSL this schedule margin has eroded at a rate slightly greater than planned and
  that as of February 2011 only 60 margin days remained (see Figure 4).




REPORT NO. IG-11-019                                                                         v
                                                                                          OVERVIEW




                    Figure 4. Comparison of Planned Schedule Margin to Actual
       200
       180
       160
       140
       120
       100
        80
        60
        40
        20
         0




                            Planned Schedule Margin       Actual Schedule Margin
                            Projected Schedule Margin



     When the launch was rescheduled in 2009, Project managers programmed 185 margin
     days into the development schedule. However, since November 2009 the Project has
     been consuming margin days more quickly than managers expected as a result of the
     number and complexity of technical issues needing to be resolved. Although managers
     expressed confidence that the remaining schedule margin would be adequate to address
     the risks having potential schedule impact that they have indentified, the rate of schedule
     margin decrease concerns us because the inherent complexity of the MSL Project
     increases the likelihood that additional issues will arise in final testing and integration.

     Project Management Did Not Effectively Assess or Prioritize the Risks Identified by
     the P/FR Process. Problem/Failure Reports (P/FRs) are generated when individuals
     working on a project observe a departure from design, performance, testing, or other
     requirements that affects equipment function or could compromise mission objectives.
     P/FRs may range from minor issues with negligible effects to potential “red flag” issues
     with significant or major effects, up to and including a loss of mission.

     We found that MSL Project managers did not consistently identify and assess the risks
     associated with P/FRs. For example, during our audit fieldwork in June 2010, the
     Project’s P/FR database contained 983 open P/FRs. We found that the Project had not
     conducted a preliminary risk assessment or assessed potential cost and schedule impacts
     for 71 of these open P/FRs.

     We also found that the number of open P/FRs increased between February 2010 and
     February 2011. For example, when we conducted a detailed analysis of the database in
     June 2010, 983 P/FRs were in open status. By February 2011, that number had increased


vi                                                                           REPORT NO. IG-11-019
OVERVIEW



  to 1,213. Moreover, during this period the average time a P/FR remained open was
  1.2 years, and P/FRs with higher degrees of risk – including significant and potential red
  flag reports – remained open on average approximately 1.6 years.

  Project managers expressed confidence that they will close those P/FRs that require
  resolution before the launch date, noting that P/FRs involving flight software can be
  resolved after launch. However, as discussed above, because Project managers have not
  assessed the risk associated with all open P/FRs, we remain concerned that they do not
  have sufficient information to assess whether these P/FRs could negatively impact safety,
  cost, or mission success and may not have allocated sufficient resources to address them.
  Our concern is heightened by the increasing number of open P/FRs, the fast approaching
  launch date, and the amount of time that it has taken Project managers to close P/FRs in
  the past.

  Project Funding May Be Inadequate. The Project achieved several important
  technological successes over the past 2 years, including delivery and acceptance of the
  actuators (motors that allow the rover and instruments to move), avionics, radar system,
  and most of the rover’s instruments. However, Project managers did not accurately
  assess the risks associated with developing and integrating the MSL instruments and did
  not accurately estimate the resources required to address these risks. Consequently, the
  cost of completing development and the Project’s life-cycle costs have increased.

  In August 2006, NASA estimated the life-cycle cost for MSL as $1.6 billion. After
  launch was rescheduled for 2011, Project managers developed a new schedule and cost
  baseline for the Project, adding $400 million to complete development. Estimated life-
  cycle costs for the Project increased to $2.3 billion in fiscal year (FY) 2010 and to
  $2.4 billion in FY 2011. In November 2010, the Project requested an additional
  $71 million, which brought the total life-cycle cost estimate to the current estimate of
  approximately $2.5 billion. The extra money was obtained by reprogramming funds in
  the FY 2010 Mars Program budget, identifying additional funds from the Planetary
  Science Division in FY 2011, and addressing the balance in the FY 2012 budget request.

  The primary causes for the most recent cost escalations were:
      •   increases in the validation and verification and testing programs;
      •   problem resolution;
      •   funding of the assembly, test, and launch operations (ATLO) team for a post-
          shipment delay period;
      •   impact on Kennedy Space Center operations due to delaying the launch to
          November 2011; and
      •   P/FR and other paperwork closure.




REPORT NO. IG-11-019                                                                           vii
                                                                                                            OVERVIEW



       In our judgment, even Project management’s most recent estimate may be insufficient to
       ensure timely completion of the Project in light of the historical pattern of cost increases
       and the amount of work that remains to be completed before launch. For example, when
       NASA rescheduled the launch to 2011, Project managers estimated the cost to complete
       development at $400 million and maintained $95 million of unallocated reserve at the
       Program level. However, this level of reserve turned out to be insufficient and the
       estimated cost to complete development was increased by $137 million, from
       $400 million to $537 million, in December 2010.

       Our analysis of the Project’s current estimate to complete development indicates that
       even the $537 million figure may be too low. Our analysis is based on the earned value
       management system budget data and estimates of the additional work that will be needed
       to address unknowns. We estimate that $581 million may be required – $44 million more
       than management’s latest estimate. Based on our calculations, unless managers request
       additional money the Project may have insufficient funds to complete all currently
       identified tasks prior to launch and may therefore be forced to reduce capabilities, delay
       the launch for 2 years, or cancel the mission. 5

       Conclusion. Historically, NASA has found the probability that schedule-impacting
       problems will arise is commensurate with the complexity of the project. MSL is one of
       NASA’s most technologically complex projects to date. Accordingly, we are concerned
       that unanticipated problems arising during final integration and testing of MSL, as well as
       technical complications resulting from outstanding P/FRs, could cause cost and schedule
       impacts that will consume the current funding and threaten efforts to complete
       development and launch on the current schedule. Similarly, we are concerned that the
       limited remaining schedule margin may increase pressure on NASA to accept reduced
       capabilities in order to meet the approaching launch window and avoid another 2-year
       delay that would require significant redesign at a cost of at least $570 million or cancel
       the mission.

       Management Action

       To minimize the risk of missing the upcoming launch window and incurring the resultant
       costs, NASA’s Associate Administrator for the Science Mission Directorate should
       reassess the sufficiency of the Project’s funding based on our calculations. In addition,
       the MSL Project Manager should allocate additional resources to expeditiously close all
       outstanding P/FRs that could impact mission success.



       5
           Our $581 million calculation is an overall estimate based on the average efficiency of Project
           management’s work performed since February 2009 and includes items that did not increase in cost and
           items that may have substantially increased in cost above the average. We considered the Project’s cost in
           aggregate and did not attempt to segregate the impact of individual items on work performance efficiency
           and cost to complete project development (see Appendix D).



viii                                                                                         REPORT NO. IG-11-019
OVERVIEW



  In response to a draft of this report, the Associate Administrator for the Science Mission
  Directorate concurred with our recommendations and stated the Directorate had been
  conducting weekly monitoring and ongoing assessments of the Project’s funding status,
  expenditures, and remaining work (see Appendix E for the Agency’s response).
  According to these assessments, the Project’s budget, coupled with $22 million in
  Directorate-held reserves, will be sufficient for MSL to achieve a timely and safe launch.
  In addition, the Associate Administrator stated that MSL Project management has
  developed a plan to address all open P/FRs and expected to close all relevant P/FRs by
  the time of the MSL launch.

  We consider the Associate Administrator’s comments and proposed actions to be
  responsive to our recommendations. The recommendations are resolved and will be
  closed upon completion and verification of the proposed corrective actions.

                                                        Other Matters of Interest

  On May 20, 2011, subsequent to the issuance of a draft of this report, an incident
  occurred during flight system assembly that had the potential of causing damage to MSL
  system components. Due to a crane operator’s error, the spacecraft’s backshell (the part
  of the spacecraft structure designed to decelerate the spacecraft and protect its contents
  from overheating during entry into the Martian atmosphere) and the support cart the
  backshell was attached to were pulled off the ground for a few seconds. At the time,
  on-site personnel reported that they did not hear any noises (pops or creaks) from the
  backshell.

  MSL Project managers stated that the incident did not appear to have placed excessive
  loads on the backshell, and subsequent visual inspections and “tap testing” of the
  backshell did not reveal any damage. In addition, the contractor compared the loads from
  the incident with the expected flight loads and concluded that the backshell had not been
  damaged. As of June 2, 2011, it was unclear whether the incident will have any impact
  on the Project’s cost and schedule.




REPORT NO. IG-11-019                                                                           ix
JUNE 8, 2011




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

  RESULTS
      Unresolved Technical Issues Continue to Strain Launch
        Schedule Margin ___________________________________ 5
      Additional Risk Associated with Closing
        Problem/Failure Reports ____________________________ 11
      Project Management Consistently Underestimated
         Cost to Complete MSL ______________________________ 14

  APPENDIX A
      Scope and Methodology _______________________________ 21
      Review of Internal Controls ____________________________ 22
      Prior Coverage ______________________________________ 22

  APPENDIX B
      Payload Descriptions _________________________________ 23

  APPENDIX C
      Task Descriptions ____________________________________ 27

  APPENDIX D
      Cost Projection Approaches ____________________________ 31

  APPENDIX E
      Management Comments ______________________________ 34

  APPENDIX F
      Report Distribution ___________________________________ 36



REPORT NO. IG-11-019
JUNE 8, 2011




                                                                        INTRODUCTION


Background

  The Mars Science Laboratory (MSL), part of the Mars Exploration Program (Mars
  Program), is one of NASA’s flagship missions with life-cycle costs currently estimated at
  $2.5 billion. 6 MSL is currently scheduled to launch in a window between November 25,
  2011, and December 18, 2011; land on Mars in August 2012; and operate on the surface
  of the planet for a minimum of 1 Martian year (approximately 2 Earth years).

  The Mars Program seeks to understand if Mars has, or ever had, an environment capable
  of supporting life. To answer this question, NASA plans to place a rover – known as
  Curiosity – on the surface of Mars to assess the biological potential at the landing site,
  characterize the geology of the landing region, investigate planetary processes that
  influence habitability, and analyze surface radiation. This roving science laboratory
  includes 10 advanced research instruments (described in Appendix B) that will collect
  Martian soil and rock samples and make detailed measurements of element composition,
  elemental isotopes and abundance, mineralogy, and organic compounds.

  The MSL rover is engineered to drive longer distances over rougher terrain than NASA’s
  previous Martian rovers, Spirit and Opportunity, and unlike those rovers which relied on
  solar power, will use a radioisotope power system to generate the electricity needed to
  operate. MSL’s key performance parameters are: (1) land within a 10-kilometer (6-mile)
  radius from a designated point on the surface of Mars; (2) acquire scientific data for
  1 Martian year; (3) have a total traverse path of 20 kilometers (12 miles); and (4) select,
  acquire, process, distribute, and analyze 74 soil and rock samples.

  The primary components of MSL are the launch vehicle (an Atlas V rocket), flight
  system, and the terrestrial ground-data system processing stations. The flight system
  consists of an Earth-Mars cruise stage, an entry-descent-landing system, and a mobile
  science rover with its science instrument payload.

  MSL is the most technologically challenging interplanetary rover ever designed. It will
  use new technologies to adjust its flight while descending through the Martian
  atmosphere and set the rover on the surface by lowering it on a tether from a hovering
  descent stage (see Figure 5).




  6
      Flagship missions are missions with costs exceeding $1 billion.



REPORT NO. IG-11-019                                                                            1
                                                                                    INTRODUCTION



                                     Figure 5. MSL Mission Overview


           CRUISE/APPROACH
           − Approximately 9 months
             in route
           − Approach starts 5 days
             before entry

                                                                  ENTRY, DESCENT, AND LANDING
                                                                  − 15 minutes
                                                                  − Direct Entry
                                                                  − Communication provided by
                                                                    ultra-high frequency link to different
                                                                    relay orbiters, based on latitude




    Source: NASA/Jack Pfaller (KSC-2009-3750)

    LAUNCH
    − Nov.–Dec. 2011 Launch
    − Atlas V launch vehicle




            SURFACE MISSION
            − August 2012
            − 1 Mars year prime mission
            − 900 kilogram (kg) rover
            − mobility capability of 20
              kilometers
            − Approx. 100 kg payload of
              instruments and support tools
            − Radioisotope Power Source




2                                                                           REPORT NO. IG-11-019
INTRODUCTION



  The NASA Associate Administrator for the Science Mission Directorate is the
  programmatic authority for the MSL Project. NASA’s Jet Propulsion Laboratory (JPL) is
  responsible for performing overall system design and integration. In addition, five other
  NASA Centers support MSL:

        •   Ames Research Center – provides the Chemistry and Mineralogy (ChemMin)
            instrument and elements of the Ground Data System and supports entry descent
            and landing systems engineering and verification;

        •   Goddard Space Flight Center – provides the Sample Analysis at Mars (SAM)
            instrument;

        •   Johnson Space Center – supports entry descent and landing systems engineering
            and delivers guidance, navigation, and control algorithms;

        •   Kennedy Space Center – supports final integration, assembly, and launch; and

        •   Langley Research Center – supports entry descent and landing systems
            engineering and delivers guidance, navigation, and control algorithms.

  Three foreign government space agencies – the Russian Federal Space Agency, the
  Spanish Ministry of Education and Science, and the Canadian Space Agency – the
  Department of Energy, and a number of subcontractors also contribute to the MSL
  Project.

  Cost and Schedule History. Due to planetary alignment, the optimal launch window for
  a mission to Mars occurs every 26 months. Originally, MSL was to launch between
  September 2009 and October 2009. In February 2009, NASA delayed the launch 2 years
  to a window between October and December 2011. The delay resulted from unresolved
  technical issues that caused several critical components and instruments to miss their
  delivery dates. For example, actuators (motors that allow the rover and instruments to
  move) and avionics missed scheduled delivery dates by 11 and 4 months, respectively.

  The 2-year delay and the additional resources required to resolve the underlying technical
  issues increased the Project’s development costs from $969 million to $1.8 billion or
  86 percent, and its life-cycle costs from $1.6 billion to $2.5 billion or 56 percent. 7
  Table 2 shows the Project’s cost increases since 2006.




  7
      As required by the NASA Appropriation Act of 2005, NASA notified Congress in December 2008 that
      MSL had exceeded its schedule baseline by more than 6 months and its cost baseline by more than
      15 percent.



REPORT NO. IG-11-019                                                                                    3
                                                                                    INTRODUCTION




                         Table 2. MSL Project Cost Summary (millions)

                                      Initial Cost
                                     Estimate per       Proposed          Funds
             Phase                   2006 Project       FY 2012       Expended as of
                                          Plan           Budget       December 2010
             Formulation
             (Phases A and B)          $ 515.1         $ 515.5           $ 515.5
             Development
             (Phases C and D)             968.6         1,802.0           1,609.9
             Operation
             (Phase E)                    158.5           158.8
             Life-Cycle Cost           $1,642.2        $2,476.3          $2,125.4



Objectives

    The overall objective of this audit was to examine whether NASA has effectively
    managed the MSL Project to accomplish its mission objectives while meeting revised
    schedule and cost milestones. We also reviewed management’s cost estimate and its
    process for identifying, reporting, and mitigating risks. See Appendix A for details of the
    audit’s scope and methodology, our review of internal controls, and a list of prior
    coverage.




4                                                                          REPORT NO. IG-11-019
RESULTS




                            UNRESOLVED TECHNICAL ISSUES CONTINUE TO
                                    STRAIN LAUNCH SCHEDULE MARGIN

             As of February 2011, MSL’s remaining schedule margin was 60 days and more tasks
             remained to be completed prior to launch than managers had planned. Specifically,
             the Project had 11 outstanding tasks to be completed in 2011 as opposed to the 4
             tasks managers had planned as of February 2009. This increase occurred because of
             continuing technical challenges that are still being resolved. Although NASA
             expects that the remaining schedule margin will be sufficient to complete the
             remaining tasks, in our judgment, the margin may not be sufficient to provide
             management with the flexibility to resolve unanticipated issues that typically arise in
             the integration and testing of complex projects like MSL. Consequently, to meet the
             launch schedule and avoid the more than $570 million in additional costs a delay
             would engender, Project managers may have to accept greater risks than anticipated
             related to safety, cost, and the completion of mission objectives.


Schedule Margin and Remaining Technical Issues

  Project managers include a schedule margin to allow for resolution of unanticipated
  issues that arise during project development. The size of the schedule margin varies
  depending on a project’s potential for unforeseen issues such as failures during testing,
  procurement-related delays, resource availability problems, and new technology
  challenges. When NASA rescheduled the MSL launch in 2009, the Project’s schedule
  margin was 185 days. As of February 2011, managers planned to have 110 days of
  remaining schedule margin, but only 60 days of margin remained.

  Remaining Unresolved Technical Issues. Project management has overcome most of
  the technical issues that were the primary causes of the 2009 launch delay. For example,
  the actuators have been redesigned, manufactured, and delivered, and the technical issues
  related to developing a subsystem for gas removal for the Sample Analysis at Mars
  (SAM) instrument were resolved and the SAM installed on the rover in January 2011. 8
  However, of the ten issues identified as contributing to the decision to delay the launch,
  three remained unresolved as of March 2011: contamination of rock and soil samples
  collected by the Sample Acquisition/Sample Processing and Handling (SA/SPaH)
  subsystem and development of flight software and fault protection systems.




  8
      SAM is designed to identify materials that contain the element carbon, including methane, that are
      associated with life and explore ways in which the compounds are generated and destroyed on Mars.



REPORT NO. IG-11-019                                                                                       5
                                                                                                        RESULTS



    Project managers acknowledged that the SA/SPaH will be resolved prior to launch.
    However, they stated that issues involving fault protection development and flight
    software not related to launch can be resolved after MSL has been launched.

    The immature technology and late delivery of the rover’s SA/SPaH subsystem was one of
    the major issues that caused the 2-year schedule delay. 9 During testing, Project managers
    found that hydrocarbons from oil used during the manufacturing of the drill bits were
    being released and causing contamination of samples. As of March 2011, Project
    managers said they have identified and validated a solution to minimize contamination of
    samples and the revised drill bit fabrication was already near completion. However, we
    remain concerned because work on this mission-critical subsystem is still incomplete and
    not due for delivery until June 2011, when the rover is due for delivery to Kennedy Space
    Center for final integration and assembly.

    The other two remaining issues are development of flight software and development of
    fault protection systems. Flight software will be used in conjunction with the spacecraft’s
    onboard computer for command and control of all spacecraft activities (see Appendix C,
    Task 9, for a detailed description). Fault protection is an engineering fail-safe design
    required of all NASA flight projects that enables a system to continue operating at a
    reduced level rather than failing completely. During previous reviews in May 2009 and
    June 2010, MSL’s Standing Review Board expressed concern about the late development
    of the resource load plan for fault protection and redundancy management. 10 MSL
    managers completed the fault protection design and initiated testing in November 2010.
    As of March 2011, MSL managers had completed development and initiated testing of
    most of the flight software; however, development of software to control the spacecraft
    and rover remained in progress.

    More Recent Concerns. Project managers stated that the expected performance of the
    rover’s power generation system, the Multi-Mission Radioisotope Thermoelectric
    Generator (MMRTG), has been reduced. Thermoelectric modules inside the MMRTG,
    which was developed and provided to NASA by the Department of Energy, convert heat
    (thermal energy) from the decay of a radioisotope (plutonium-238 dioxide) into
    electricity. Project managers attribute some of the MMRTG’s performance degradation
    to the natural radioactive decay that occurred during the 2-year launch delay. However,
    unexpected temporary reductions in the system’s power output were also noted during
    testing that simulated the vibration and shock that MSL will experience during its entry,
    descent, and landing on Mars.

    9
        SA/SPaH has two primary functions, sample acquisition and sample processing and handling. Sample
        acquisition is accomplished by an arm that supports a percussive powdering drill, abrader, scoop, and
        contact instruments; the sample processing and handling performs sample transfer using door mechanisms
        for delivering samples to the rover’s analytical instruments.
    10
         The Standing Review Board is an outside group of experts convened by NASA to monitor the status of a
         program or project. The Board periodically conducts independent reviews of performance related to
         cost, schedule, technical, and other risks.



6                                                                                      REPORT NO. IG-11-019
RESULTS



  Department of Energy officials stated that the power degradation issue is unlikely to
  cause a catastrophic failure. However, as a cautionary measure, MSL Project managers
  have reduced the mission’s performance capabilities to processing 28 rather than 74 soil
  and rock samples and to traversing 4.5 kilometers rather than 20 kilometers.


Schedule Margin Erosion and Remaining Tasks

  We found that the MSL’s schedule margin has eroded at a greater rate than Project
  managers anticipated. As of February 2011, 60 days of margin remained compared to the
  110 days that had been planned (see Figure 6). In November 2009, the Project
  experienced a steep decline, from 185 to 120 margin days. In comparison, Project
  managers expected to maintain 185 margin days until March 2010. Furthermore, the gap
  between planned and actual margin has remained constant. To management’s credit, in
  addition to the original margin of 105 days to allow for unforeseen issues, the Project
  manager held 55 days in his own reserve. In addition, the decision to schedule the launch
  for the latter part of the launch window provided another 25 days of margin. Without
  these two actions, the Project would have exhausted its schedule margin.

                        Figure 6. Plan versus Actual Schedule Margin
    200
    180
    160
    140
    120
    100
     80
     60
     40
     20
      0



                 Planned Schedule Margin                  Actual Schedule Margin
                 Projected Schedule Margin



  As shown in Figure 6, the schedule margin had the most significant decrease (60 days)
  starting in March 2010. This coincided with delays in delivering the Project’s major
  components, including actuators, SAM, and SA/SPaH (see Table 3.)




REPORT NO. IG-11-019                                                                          7
                                                                                            RESULTS




                      Table 3. MSL Major Components Delivery Schedule
                                                                                  Delay
                             Estimated Delivery Dates                             Since
                                                                    Actual        Initial
                       Per 3/09     Per 6/09      Per 11/09     Delivery Date    Status
                        Status       Status        Status        to Assembly        (in
    Component          Review        Review        Review        and Testing     months)
    Actuators          7/22/2009    10/16/2009     1/27/2010         7/8/2010       11
    Avionics
    power assembly    10/19/2009     1/15/2010      1/7/2010        1/13/2010        2
    motor control      1/29/2010     1/29/2010      3/2/2010         6/3/2010        4
    compute element     3/3/2010      3/3/2010     5/10/2010        5/12/2010        2
    analog module       6/3/2010      6/3/2010      6/8/2010       10/25/2010        4
    SA/SPaH            5/28/2010      6/8/2010     8/20/2010        8/12/2010        2
    Radar              5/20/2009     11/9/2009    12/11/2009         3/4/2010        9


    Project managers expressed confidence that the current schedule margin would be
    adequate to address all risks to schedule identified to date. However, we are concerned
    that the complexity of the Project, the outstanding technical issues that remain to be
    resolved, and the problem/failure reports that still need to be closed (see discussion
    below) will increase the likelihood that unanticipated issues will arise during final testing
    and integration, which the current schedule margin will be inadequate to accommodate.

    Delays in development and delivery of critical project components and subsystems have
    contributed to erosion of the schedule margin. As seen in Figure 7 these delays pushed
    the completion of critical tasks into 2011 and therefore closer to the launch date. When
    the original launch delay was approved in February 2009, the project budgeted 185
    margin days (top blue line in Figure 6) and the corresponding launch-related tasks were
    scheduled for completion as shown in white in Figure 7.




8                                                                            REPORT NO. IG-11-019
RESULTS




                       Figure 7. Comparison of Critical Tasks Timeline
                             (see Appendix C for task descriptions)
                       2009                          2010                               2011




                   May




                   May




                   May
                   Aug


                   Nov




                   Aug


                   Nov




                   Aug


                   Nov
                   Mar




                   Mar




                   Mar
                   Dec




                   Dec




                   Dec
                   Apr




                   Apr




                   Apr
                   Feb




                   Sep




                   Feb




                   Sep




                   Feb




                   Sep
                   Oct




                   Oct




                   Oct
                   Jun




                   Jun




                   Jun
                   Jan




                   Jan
                   Jul




                   Jul




                   Jul
 Mechanical

 Payload

 SA/SPaH

 Avionics

 Launch Vehicle

 Flight Software

 Assembly, Test,
 and Launch
 Operations

 Testbeds

 Guidance,
 Navigation, and
 Control

 Kennedy
 Operations
 Multi-Mission
 Radioisotope
 Thermoelectric
 Generator
 (MMRTG)

                                                         Legend
                                   - Per Feb 2009 Plan            - Per Feb 2011 Plan




REPORT NO. IG-11-019                                                                           9
                                                                                                             RESULTS



     As shown in Figure 7, in February 2009 managers planned to complete 4 tasks in the final
     11 months prior to launch. However, by February 2011 this list had grown to 11 tasks.
     As discussed previously, delays in development and delivery of critical components and
     subsystems postponed these tasks closer to the launch date. When these deliveries were
     delayed, the completion dates for the tasks were extended into 2011 causing the Project to
     lose margin days (red line in Figure 6). These extended tasks are adding to those that
     Project managers previously planned for 2011 including:

            •   Mechanical assembly and electrical integrations;

            •   Rover rework, including major instrument and component installation;

            •   Software updates;

            •   Drill rework (part of SA/SPaH), requiring complete turret deintegration and
                reintegration;

            •   Environmental testing;

            •   System and functional testing;

            •   Rover descent stage fit check;

            •   Mass Property Measurements;

            •   MMRTG installation (mechanical and electrical);

            •   Pack and ship to Kennedy Space Center; and

            •   Final processing at Kennedy and integration on the launch vehicle.

     With only 60 margin days remaining for calendar year 2011, Project managers have
     limited flexibility to address any significant new problems that may arise as the Project is
     integrated and prepared for launch. Unforeseen incidents – such as the one that occurred
     on May 20, 2011, when a crane operator’s error resulted in unplanned inspections and
     assessments of MSL’s backshell to determine whether it was damaged – have the
     potential to erode schedule margin and affect the schedule. 11 Missing the current launch
     window would result in another 2-year delay at a cost of at least an additional
     $570 million or mission cancellation. Moreover, we are concerned that as the schedule
     margin tightens NASA will face increased pressure to reduce capabilities relative to the
     mission objectives.

     11
          The spacecraft backshell is designed to decelerate the spacecraft and protect its contents from
          aerothermal heating during entry into the Martian atmosphere. The crane operator lifted the backshell
          and the support cart it was attached to for a few seconds. Subsequent visual inspections and “tap testing”
          of the backshell did not reveal any damage.



10                                                                                          REPORT NO. IG-11-019
RESULTS




                          ADDITIONAL RISKS ASSOCIATED WITH CLOSING
                                          PROBLEM/FAILURE REPORTS

             Project managers did not consistently identify and assess cost and schedule risks
             associated with problem/failure reports (P/FRs). Consequently, cost reserve and
             schedule margins may not be adequate to accommodate the potential impacts of these
             risks. A large number of P/FRs remain open and resolving them may result in
             increased costs and delays due to unanticipated problems.


Problem/Failure Report Associated Risks and Closures

  JPL requires a formal problem/failure reporting and analysis program to support flight
  project hardware and software developments. The program requires the cognizant
  engineer to review P/FRs and assign a preliminary risk rating within 10 days of
  occurrence of the incident for early identification of potentially significant issues. 12 MSL
  Project managers developed a problem/failure reporting process to address problems and
  concerns attributed to technical uncertainties identified during development of the MSL.
  These reports range from minor issues with negligible effects to “red flag” issues with
  significant or major effects up to and including a loss of mission. An example of a minor
  P/FR is the correction of language in a test procedure. An example of a red flag issue is
  the unexpected powering down of MSL’s main onboard computer during a critical phase
  of the mission. In such a situation, the computer may lose memory of the last action
  performed, which could lead to unintended actions resulting in hardware or software
  failure and the inability to achieve mission objectives.

  MSL Project Management Did Not Effectively Assess or Prioritize the Risks
  Identified by the P/FR Process. During fieldwork, in June 2010, there were 2,085
  P/FRs on record for the MSL Project, with 1,102 closed and 983 open. We found that
  71 of the open P/FRs had not received the required preliminary risk assessment. In the
  absence of these assessments, Project managers may not have allocated sufficient
  resources to address these P/FRs.

  Problem/Failure Reports Were Not Closed in a Timely Manner. We analyzed P/FR
  database trends from June 2010 to February 2011 and found that although the number of
  open P/FRs as a percentage of the whole was decreasing, the absolute number of open
  P/FRs increased. Specifically, as of February 24, 2011, the number of P/FRs had
  increased to 2,865, of which 1,652 were closed and 1,213 open. Figure 8 shows a trend
  of steady increase in P/FRs while Table 4 shows that more than 42 percent of the
  Project’s P/FRs remained open as of February 2011.

  12
       JPL Rule 73472, Section 5.10.15, “Preliminary Risk Rating.”



REPORT NO. IG-11-019                                                                              11
                                                                                                                                                                                                                                                                                                                                                                     RESULTS




                                                                             Figure 8. MSL Problem/Failure Report Trend
                        3500
                                                                                                                                                                                                                                                                                                                                                                   Total
                        3000
                                                                                                                                                                                                                                                                                                                                                                   P/FRs
                        2500
      Number of P\FRs




                        2000                                                                                                                                                                                                                                                                                                                                       Closed
                                                                                                                                                                                                                                                                                                                                                                   P/FRs
                        1500

                        1000
                                                                                                                                                                                                                                                                                                                                                                   Open
                                                                                                                                                                                                                                                                                                                                                                   P/FRs
                         500

                           0
                               2/23/2010


                                                      3/23/2010


                                                                             4/20/2010


                                                                                                    5/18/2010


                                                                                                                           6/15/2010
                                                                                                                                       6/29/2010
                                                                                                                                                   7/13/2010
                                                                                                                                                               7/27/2010
                                                                                                                                                                           8/10/2010
                                                                                                                                                                                       8/24/2010


                                                                                                                                                                                                              9/21/2010
                                                                                                                                                                                                                          10/5/2010


                                                                                                                                                                                                                                                    11/2/2010




                                                                                                                                                                                                                                                                                                                    1/11/2011
                                                                                                                                                                                                                                                                                                                                1/25/2011


                                                                                                                                                                                                                                                                                                                                                       2/22/2011
                                           3/9/2010


                                                                  4/6/2010


                                                                                         5/4/2010


                                                                                                                6/1/2010




                                                                                                                                                                                                   9/7/2010




                                                                                                                                                                                                                                                                                                                                            2/8/2011
                                                                                                                                                                                                                                      10/19/2010


                                                                                                                                                                                                                                                                11/16/2010
                                                                                                                                                                                                                                                                             11/30/2010
                                                                                                                                                                                                                                                                                          12/14/2010
                                                                                                                                                                                                                                                                                                       12/28/2010
                                                                                                                                                                       Date

     Source: MSL Project Quarterly Status Report February 2011



                                                                                                    Table 4. MSL P/FR Progress Snapshot

                                                                                                           Increase                                                                           Increase                                                                             Net Incr                                                  Open
                                                                                                             from                                      No. of                                    of                                      No. of                                    (Decr) of                                                P/FRs to
                                                                                                           previous                                    Closed                                  P/FRs                                     Open                                        Open                                                    Total
                         As of Date                                          Total                          month                                      P/FRs                                   Closed                                    P/FRs                                      P/FRs                                                    P/FRs
                           6/21/10                                           2,085                                                                         1,102                                                                                      983                                                                               47 percent
                           7/19/10                                           2,184                                           99                            1,132                                               30                                  1,052                                                    69                          48 percent
                           8/20/10                                           2,248                                           64                            1,185                                               53                                  1,063                                                    11                          47 percent
                           9/17/10                                           2,320                                           72                            1,250                                               65                                  1,070                                                            7                   46 percent
                          10/18/10                                           2,413                                           93                            1,360                                              110                                  1,053                                               (17)                             44 percent
                          11/15/10                                           2,485                                           72                            1,421                                               61                                  1,064                                                    11                          43 percent

                          12/20/10                                           2,563                                           78                            1,493                                               72                                  1,070                                                            6                   42 percent
                           1/27/11                                           2,720                                         165                             1,595                                              117                                  1,125                                                    48                          41 percent
                           2/24/11                                           2,865                                         145                             1,652                                               57                                  1,213                                                    88                          42 percent
                        Total
                        Increase                                                                                           780                                                                                550                                                                                      230



     The trend also shows that the number of P/FRs has increased by about 1,000 over the
     12-month period between February 23, 2010, and February 24, 2011. Both the trend line
     and the 8-month snapshot show that while an increasing number of P/FRs were closed


12                                                                                                                                                                                                                                                                                                              REPORT NO. IG-11-019
RESULTS



   over this period, the total number of P/FRs grew at a faster rate. Our review of the June
   2010 P/FR database also found that, on average, P/FRs remained open for 1.2 years and
   that those concerning potentially red flag issues remained open on average for 1.6 years.

   The unresolved P/FRs we reviewed were in various stages of the reporting process.
   About one-third of the open P/FRs were in the final (signature) phase, which Project
   managers said they expected to close with minimal effort. In addition, Project managers
   said they felt confident that they could close all of the P/FRs that must be closed to
   proceed to launch before the scheduled launch date, noting that those involving flight
   software can be closed after launch. However, we are concerned that 20 of 30 significant
   or potential red flag P/FRs that were open as of April 2011 involve flight hardware that
   could present significant challenges to mission success. Furthermore, as previously
   stated, at least 71 P/FRs were not properly assessed, leaving open the possibility of
   unknown risks that could impact mission success or result in unanticipated cost growth.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The MSL Project Manager should ensure that the required preliminary
risk assessments are completed on all P/FRs and identify required resources to resolve the
identified problems.

   Management’s Response. The Associate Administrator for the Science Mission
   Directorate concurred, stating that the MSL Project Manager has engaged senior JPL
   management to use lab resources to assess and ensure rapid disposition of all open P/FRs.
   In addition, senior P/FR team leads have been identified for all critical areas, with daily
   tracking and weekly reporting on the resolution progress.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive; therefore, the recommendation is resolved and will be closed upon
   completion and verification of the proposed corrective actions.

Recommendation 2. The MSL Project Manager should develop a plan to address all open
P/FRs. The plan should prioritize P/FRs commensurate with their severity, provide a schedule
for completion, and establish realistic resource requirements to ensure a timely and safe launch.

   Management’s Response. The Associate Administrator concurred, stating that Project
   management had developed such a plan in March 2011. Based on improved P/FR closure
   progress to date, Project management expected the plan would lead to closure of all
   relevant P/FRs by the time of the MSL launch.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive; therefore, the recommendation is resolved and will be closed upon
   completion and verification of the proposed corrective actions.


REPORT NO. IG-11-019                                                                             13
                                                                                                           RESULTS




                                              PROJECT MANAGEMENT CONSISTENTLY
                                                    UNDERESTIMATED THE COST TO
                                                                COMPLETE MSL

                Project managers have increased cost estimates for MSL multiple times since
                inception of the Project. Since February 2009, the Project has received three budget
                increases totaling $137 million, including a $71 million increase in December 2010.
                Even with these increases, we are concerned that based on historical cost trends and
                the remaining work to be completed, funding for MSL may still be insufficient to
                meet the 2011 launch schedule. In our judgment, in order to meet the scheduled
                launch date without reducing scope, the Project may require additional funding.


Project Management Consistently Underestimated Costs

     MSL’s 2-year launch delay and the additional resources required to resolve the underlying
     technical issues increased the Project’s development costs from $969 million to
     $1.8 billion (86 percent) and the corresponding life-cycle cost estimate from $1.6 billion
     (per the May 2006 project plan) to $2.5 billion. Moreover, the current development and
     life-cycle cost estimates reflect three separate increases over the past 2 years. Since the
     launch was delayed in February 2009, the estimated cost to complete development has
     increased by $137 million, including an additional $71 million – consisting of
     $36 million in identified work and a $35 million reserve – in December 2010. In
     addition, Mars Program management set aside $22 million as Program Office reserve
     that has not been specifically allocated to the MSL Project.

     Growing Cost Estimates. Following the decision to delay MSL’s launch, Project
     managers established a new schedule and cost baseline taking into consideration the work
     required to meet the 2011 launch date. This February 2009 rebaseline included a
     $400 million estimate to complete the remaining work through launch (the development
     phase). In May 2009, NASA’s Independent Program Assessment Office (IPAO)
     projected that development costs would likely exceed the Project’s revised estimate by
     $65–$95 million and could exceed the estimate by up to $107 million. 13 At that time, the
     Mars Program Office set aside a $95 million Program Office reserve. However, 1 year
     later the IPAO and JPL’s independent cost assessment both showed a risk that the
     $495 million cost estimate would be insufficient. See Table 5 for their estimates.




     13
          The IPAO provides independent life-cycle reviews and assessments of the technical, schedule, cost, and
          risk posture of proposed and ongoing projects to provide objective advice to the Agency Program
          Management Council.



14                                                                                        REPORT NO. IG-11-019
RESULTS




                            Table 5. Independent Cost Estimates

                                               Low          Mostly Likely         High
   IPAO Assessment as of June 2010         $484 million     $495 million      $520 million
   JPL Independent Assessment as of
                                           $498 million                       $511 million
    May 2010


  Although the IPAO’s most likely estimate remained at $495 million, its “high” estimate
  increased to $520 million. JPL did not offer a “most likely” estimate, but its independent
  assessments at the low end exceeded the $495 million estimate by $3 million and its
  “high” figure exceeded the estimate by $16 million.

  See Table 6 for details of the Project’s history of cost increases through December 2010.




REPORT NO. IG-11-019                                                                           15
                                                                                                         RESULTS



                      Table 6. MSL Cost Estimates Since 2009 Launch Delay
                        (Estimated Cost to Complete Project Development)
                             Estimated Cost to
         Date of Cost
                                 Complete              Main Factors Driving Cost Growth
           Estimate
                                (in millions)
                                                 • SAM development activity
                                                 • flight systems development activity:
                                                    actuators; avionics; SA/SPaH subsystem;
     February 2009                  $ 400
                                                    and radar
                                                 • late subsystem deliveries
                                                 • launch vehicle
                                                 • This increase resulted from a review by the
                                                    Standing Review Board and NASA
                                   + 32
     June 2009                                      management of the Project reserve level and
                                      432
                                                    risks. The major technical drivers remained
                                                    the same as above.
                                                 • SAM development activity
                                                 • flight system development activity:
                                   + 34
     November 2009                                  actuators, avionics, SA/SPaH subsystem,
                                      466
                                                    and radar
                                                 • late subsystem deliveries
                                                 • increases in the validation and verification
                                                    program and test program
                                                 • funding of the ATLO team for a post-
                                                    shipment delay period.
                                   + 71
     December 2010                               • increase in Kennedy operations cost
                                   $ 537*
                                                    estimate for the change in the launch date to
                                                    November 2011
                                                 • P/FR resolution and other paperwork
                                                    closure
     * In December 2010, management for the Mars Program set aside an additional $22 million as unallocated
       reserve. This amount is a Program Office reserve that was not allocated to MSL and is not included in the
       figures above.




16                                                                                      REPORT NO. IG-11-019
RESULTS



  Budget May Be Inadequate. In November 2010, managers requested an additional
  $71 million, which brought the development cost estimate to $537 million and the total
  life-cycle cost estimate to $2.5 billion. The Agency Program Management Council
  approved the request in December 2010. 14

  The November 2010 request consisted of $36 million to complete the then current scope
  of work plus $35 million in reserve. Managers developed the $36 million estimate by
  conducting a bottom-up review of the remaining work and the $35 million figure by
  calculating 20 percent reserve levels based on the total estimated cost ($175 million) as of
  September 2010 to complete the Project’s development phase. 15 In addition, Project
  managers said they validated the reserve requirement by using various cost projection
  approaches.

  However, in our judgment, in light of the Project’s historical pattern of cost increases and
  our analysis of the Project managers’ cost estimates, current funding may be insufficient
  to ensure the Project meets the 2011 launch date. In June 2009, the Mars Program Office
  set aside a $95 million reserve; however, this reserve has proved insufficient to cover the
  current $137 million cost increase needed to complete the development phase.

  Our analysis indicated that the Project’s $537 million estimate to complete development
  may still be insufficient to fund the Project through launch. We recomputed a cost to
  complete estimate by factoring in cost increases associated with the additional work
  requirements added since February 2009 to address technical issues identified during
  development and determined that $581 million was required – $44 million more than the
  current estimate. 16 (See Appendix D for details of our computation.)

  Although Project managers have received three funding increases since February 2009,
  Figure 9 illustrates that the schedule margin gap between planned and actual number of
  days available has not decreased. Accordingly, it appears that Project management has
  consistently underestimated the amount of resources necessary to complete tasks in
  accordance with the schedule. In addition, because we are concerned that the probability
  of unforeseen problems will increase commensurate with the complexity of the project
  and that issues discovered during integration and testing or as a result of closing the


  14
       The Agency Program Management Council is NASA’s senior management group, chaired by the NASA
       Associate Administrator or his designee, responsible for reviewing formulation performance,
       recommending approval, and overseeing implementation of programs and projects according to Agency
       commitments, priorities, and policies.
  15
       Managers applied the 20 percent based on guidance in JPL’s Flight Project Practices, a set of project
       management best practices.
  16
       Our $581 million calculation is an overall estimate based on the average efficiency of Project
       management’s work performed since February 2009 and includes items that did not increase in cost and
       items that may have substantially increased in cost above the average. We considered the Project’s cost
       in aggregate and did not attempt to segregate the impact of individual items on work performance
       efficiency and cost to complete project development.



REPORT NO. IG-11-019                                                                                             17
                                                                                            RESULTS



     outstanding P/FR issues will consume all of the current funding and reserve, thereby
     potentially jeopardizing the scheduled launch.

                        Figure 9. Comparison of Schedule Margin Reduction to
                                   Estimated Total Cost to Complete




         250                                                                            600
       M                                         537
                              466                                                       500
       a 200           432
       r         400                                                                    400   C
       g 150
       i                                                                                      o
                                                                                        300
       n 100                                                                                  s
                                                                                        200   t
       D    50                                                                          100
       a
       y     0                                                                          0
       s


                                         Estimated Total Cost to Complete
                                         Planned Schedule Margin
                                         Actual Schedule Margin
                                         Projected Schedule Margin



     Funding limitations may also increase pressure on Project managers to reduce science
     capabilities or accept a higher level of risk in order to avoid further delay. Rescheduling
     launch from 2009 to 2011 added approximately $900 million to the Project’s life-cycle
     cost estimate, and any further delay to 2013 or 2014 would only add to that figure.
     According to Program managers, in addition to added administrative and maintenance
     costs, such a delay would require the spacecraft’s cruise and descent stages be redesigned
     to accommodate differences in planetary alignment and the Martian dust storm season.
     This redesign alone would cost approximately $570 million.




18                                                                          REPORT NO. IG-11-019
RESULTS



Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 3. The Associate Administrator for the Science Mission Directorate
should reevaluate the Project’s history of cost estimation, reassess the sufficiency of
available reserves, and adjust funding accordingly.

  Management’s Response. The Associate Administrator for the Science Mission
  Directorate concurred and stated that the Directorate’s ongoing assessments indicated that
  the Project’s budget coupled with $22 million in Directorate-held reserves would be
  sufficient for MSL to achieve a timely and safe launch. In addition, the Associate
  Administrator said the Directorate was conducting weekly monitoring of the Project’s
  funding status and expenditures.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive. Although the recommendation is resolved, it will remain open pending our
  review and analysis of management’s assessments of the sufficiency of its reserve
  funding.




REPORT NO. IG-11-019                                                                           19
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from May 2010 through April 2011 in accordance with generally
  accepted government auditing standards. Those standards require that we plan and
  perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
  for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We performed work at JPL and at NASA Headquarters, Washington, D.C. We obtained,
  reviewed, and analyzed Federal, NASA, and JPL policies and procedures relating to space
  flight program and project management, including the NASA Authorization Act of 2005
  (Public Law 109-155), NASA Procedural Requirements (NPR) 7120.5D, NPR 8000.4A,
  Science Mission Directorate Management Handbook, and JPL Rules and Internal
  Standard Operating Procedures. We also reviewed NASA contract NAS7-03001 to
  determine contractual requirements for JPL operations. We interviewed management
  officials from the Science Mission Directorate’s Independent Program Assessment
  Office, and JPL MSL Project management. We discussed areas related to MSL’s
  rebaseline process, management oversight tools and processes, current project status, and
  issues that impact delivery delays and potential launch delays.

  Project Technical Risk. We reviewed JPL Rules 35506 “Anomaly Resolution” and
  73472 “JPL Problem/Failure Reports, Preparation and Review Guidelines” to understand
  the standards for effective anomaly reporting and resolution for JPL flight projects and
  the preliminary rate rating process. We interviewed JPL MSL Mission Assurance
  personnel to understand P/FR processing. To determine whether MSL Project
  management had effectively identified and assessed technical risk, we reviewed the status
  of P/FRs as of August 2010. We analyzed the P/FR database and historical trend for the
  8-month period of June 2010–February 2011. We also selected 20 P/FRs based on the
  significance of the areas affected by the problem or failure and evaluated the P/FR
  reporting, analyzing, testing, and closing process.

  Project Schedule Estimating. We reviewed planning documents for the February 2009
  rebaseline, Project status reports since the rebaseline, and Headquarters Project reviews
  since the rebaseline. We obtained an understanding of major issues that caused the 2-year
  delay. To determine the adequacy and effectiveness of the Project’s schedule control
  procedures, we reviewed instrument delivery schedules and critical path timelines and
  compared them with the rebaseline planning documents. We also analyzed schedule




REPORT NO. IG-11-019                                                                           21
                                                                                       APPENDIX A



     margin trend since rebaseline and compared the actual schedule margin with the planned
     schedule margin.

     Project Cost Estimating. To determine the adequacy and effectiveness of the Project’s
     cost control procedures, we analyzed the cost growth trend since rebaseline and main
     factors driving cost growth. We reviewed JPL’s current cost estimate method and
     recomputed a cost to complete estimate by factoring in cost increases associated with the
     additional work requirements (due to scope adjustments).

     Use of Computer-Processed Data. We used computer-processed data to perform this
     audit. JPL reportable incidents involving design, development, and testing of flight-
     configured hardware and software were reported to the problem/failure reporting and
     analysis program. Although we did not test the general or application controls of this
     program we did compare the information in the key data fields with our sample of P/FRs
     and supporting documents for the data and determined that the data was valid and reliable
     to support our objectives and conclusions.


Review of Internal Controls

     We reviewed the internal controls associated with MSL Project management’s
     assessment of cost and technical risk that could impact the near-term launch schedule.
     We noted concerns as discussed in the report. Our recommendations, if implemented,
     should address the concerns.


Prior Coverage

     During the last 5 years, the Government Accountability Office (GAO) has issued three
     reports of particular relevance to the subject of this report. Unrestricted GAO reports can
     be accessed over the Internet at http://www.gao.gov.

     “NASA: Assessments of Selected Large-Scale Projects” (GAO-10-227SP, February
     2010)

     “Information Technology: Agencies Need to Improve the Implementation and Use of
     Earned Value Techniques to Help Manage Major System Acquisitions” (GAO-10-2,
     October 2009)

     “NASA: Projects Need More Disciplined Oversight and Management to Address Key
     Challenges” (GAO-09-436T, March 2009)




22                                                                          REPORT NO. IG-11-019
APPENDIX B




                                                         PAYLOAD DESCRIPTIONS

                                    Figure 10. Rover Payloads




          Source: Status Report from Program Executive



  To accomplish the science goals of the MSL mission, the rover carries a science payload
  with instruments sponsored by NASA and others contributed by international partners.
  These instruments are roughly divided into 4 categories. Table 7 identifies the
  instruments and their categories.




REPORT NO. IG-11-019                                                                        23
                                                                                                       APPENDIX B




                                     Table 7. Instrument Descriptions
     .




Category/                                                                                        Supporting
Instrument        Functional Description                                                         Organization

Remote Sensing/   MastCam will take color images and color video footage of the Martian          Malin Space Science
Mast Camera       terrain. Like the cameras on the rovers that landed on Mars in 2004,           Systems
(MastCam)         the MastCam design consists of two camera systems mounted on a mast            (Subcontractor)
                  extending upward from the MSL rover deck (body). The MastCam
                  will be used to study the Martian landscape, rocks, and soils; to view
                  frost and weather phenomena; and to support the driving and sampling
                  operations of the rover.
Remote Sensing/   Looking at rocks and soils from a distance, ChemCam will fire a laser          Los Alamos National
Chemistry and     and analyze the elemental composition of vaporized materials from              Laboratory
Camera            areas smaller than 1 millimeter on the surface of Martian rocks and            (Subcontractor)
(ChemCam)         soils. An onboard spectrograph will provide detail about minerals and
                  microstructures in rocks by measuring the composition of the resulting
                  plasma – an extremely hot gas made of free-floating ions and electrons.
                  ChemCam will also use the laser to clear away dust from Martian rocks
                  and a remote camera to acquire detailed images. The camera can
                  resolve features 5 to 10 times smaller than those visible with cameras
                  on NASA’s two Mars Exploration rovers that began exploring Mars in
                  January 2004. In the event the MSL rover cannot reach a rock or
                  outcrop of interest, ChemCam will have the capability to analyze it
                  from a distance.
In-Situ/          MSL will carry its own equivalent of the geologist’s hand lens,                Malin Space Science
Mars Hand Lens    MAHLI. MAHLI will provide earthbound scientists with close-up                  Systems
Imager (MAHLI)    views of the minerals, textures, and structures in Martian rocks and the       (Subcontractor)
                  surface layer of rocky debris and dust. The self-focusing camera,
                  roughly 4 centimeters wide (1.5 inches), will take color images of
                  features as small as 12.5 micrometers, smaller than the diameter of a
                  human hair. MAHLI will carry both white light sources, similar to the
                  light from a flashlight, and ultraviolet light sources, similar to the light
                  from a tanning lamp, making the imager functional both day and night.
                  The ultraviolet light will be used to induce fluorescence to help detect
                  carbonate and evaporite minerals (minerals that form by coming out of
                  solution when water evaporates), both of which indicate that water
                  helped shape the landscape on Mars.
                  MAHLI’s main objective will be to help the MSL science team
                  understand the geologic history of the landing site on Mars. MAHLI
                  will also help researchers select samples for further investigation.
In-Situ/          APXS will measure the abundance of chemical elements in rocks and              Canadian Space
Alpha-Particle    soils. APXS will be placed in contact with rock and soil samples on            Agency (CSA)
X-ray             Mars and will expose the material to alpha particles and X-rays emitted
Spectrometer      during the radioactive decay of the element curium.
(APXS)




24                                                                                         REPORT NO. IG-11-019
APPENDIX B




Category/                                                                                  Supporting
Instrument        Functional Description                                                   Organization

Analytical/       CheMin will identify and measure the abundances of various minerals      NASA Ames Research
Chemistry and     on Mars. Examples of minerals found on Mars so far are olivine,          Center
Mineralogy        pyroxenes, hematite, goethite, and magnetite.
Instrument
                  Minerals are indicative of environmental conditions that existed when
(CheMin)
                  they formed. For example, olivine and pyroxene, two primary minerals
                  in basalt, form when lava solidifies. Jarosite, found in sedimentary
                  rocks by NASA’s rover Opportunity on Mars, precipitates out of water.
                  Using CheMin, scientists will be able to study further the role that
                  water played in forming minerals on Mars. Different minerals are
                  linked to certain kinds of environments. Scientists will use CheMin to
                  search for mineral clues indicative of a past Martian environment that
                  might have supported life.
Analytical/       The SAM instrument suite will take up more than half the science         NASA Goddard Space
Sample Analysis   payload on board the MSL rover and feature chemical equipment found      Flight Center
at Mars (SAM)     in many scientific laboratories on Earth. SAM will search for
                  compounds of the element carbon, including methane, that are
                  associated with life and explore ways in which they are generated and
                  destroyed in the Martian ecosphere.
                  A suite of three instruments, including a mass spectrometer, gas
                  chromatograph, and tunable laser spectrometer, SAM will also look
                  for and measure the abundances of other light elements, such as
                  hydrogen, oxygen, and nitrogen, associated with life. The mass
                  spectrometer will separate elements and compounds by mass for
                  identification and measurement. The gas chromatograph will heat soil
                  and rock samples until they vaporize, and will then separate the
                  resulting gases into various components for analysis. The laser
                  spectrometer will measure the abundance of various isotopes of carbon,
                  hydrogen, and oxygen in atmospheric gases such as methane, water
                  vapor, and carbon dioxide. These measurements will be accurate to
                  within 10 parts per thousand.
Environmental/    RAD will be one of the first instruments sent to Mars specifically to    Southwest Research
Radiation         prepare for future human exploration. RAD will measure and identify      Institute
Assessment        all high-energy radiation on the Martian surface, such as protons,       (Subcontractor)
Detector (RAD)    energetic ions of various elements, neutrons, and gamma rays. That
                  includes not only direct radiation from space, but also secondary
                  radiation produced by the interaction of space radiation with the
                  Martian atmosphere and surface rocks and soils.
                  RAD will also assess the hazard presented by radiation to potential
                  microbial life, past and present, both on and beneath the Martian
                  surface. In addition, RAD will investigate how radiation has affected
                  the chemical and isotopic composition of Martian rocks and soils.




 REPORT NO. IG-11-019                                                                                       25
                                                                                                        APPENDIX B




Category/                                                                                         Supporting
Instrument           Functional Description                                                       Organization

Environmental/       Knowing the location of loose debris, boulders, cliffs, and other            Malin Space Science
Mars Descent         features of the terrain will be vital for planning the path of exploration   Systems
Imager (MARDI)       after the MSL rover arrives on Mars. MARDI will take color video             (Subcontractor)
                     during the rover's descent toward the surface, providing an "astronaut's
                     view" of the local environment.
                     As soon as the rover jettisons its heatshield several kilometers above
                     the surface, MARDI will begin producing a five-frames-per-second
                     video stream of high-resolution, overhead views of the landing site. It
                     will continue acquiring images until the rover lands, storing the video
                     data in digital memory. After landing safely on Mars, the rover will
                     transfer the data to Earth.
                     In addition to helping Earthbound planners select an optimum path of
                     exploration, MARDI will provide information about the larger geologic
                     context surrounding the landing site. It will also enable mappers to
                     determine the spacecraft’s precise location after landing.
Environmental/       One way to look for water on Mars is to look for neutrons escaping           Russian Space Agency
Dynamic Albedo       from the planet’s surface. Cosmic rays from space constantly bombard
of Neutrons          the surface of Mars, knocking neutrons in soils and rocks out of their
(DAN)                atomic orbits. If liquid or frozen water happens to be present,
                     hydrogen atoms slow the neutrons down. In this way, some of the
                     neutrons escaping into space have less energy and move more slowly.
                     These slower particles can be measured with a neutron detector.
                     The MSL rover will carry a pulsing neutron generator called DAN that
                     will be sensitive enough to detect water content as low as one-tenth of
                     1 percent and resolve layers of water and ice beneath the surface.
                     Albedo is a scientific word for the reflection or scattering of light.
Environmental/       REMS will measure and provide daily and seasonal reports on                  Spanish Space Agency
Rover                atmospheric pressure, humidity, ultraviolet radiation at the Martian         (INTA)
Environmental        surface, wind speed and direction, air temperature, and ground
Monitoring           temperature around the rover.
Station (REMS)
                     Two small booms on the rover mast will record the horizontal and
                     vertical components of wind speed to characterize air flow near the
                     Martian surface from breezes, dust devils, and dust storms. A sensor
                     inside the rover’s electronic box will be exposed to the atmosphere
                     through a small opening and will measure changes in pressure caused
                     by different meteorological events such as dust devils, atmospheric
                     tides, and cold and warm fronts. A small filter will shield the sensor
                     against dust contamination.
                     A suite of infrared sensors on one of the booms will measure the
                     intensity of infrared radiation emitted by the ground, which will
                     provide an estimate of ground temperature. These data will provide the
                     basis for computing ground temperature. A sensor on the other boom
                     will track atmospheric humidity. Both booms will carry sensors for
                     measuring air temperature.
Source: http://mars.jpl.nasa.gov/msl/mission/instruments/



26                                                                                          REPORT NO. IG-11-019
APPENDIX C




                                                           TASK DESCRIPTIONS


                       Table 8. MSL Project Task Descriptions

        Task           Task Description
    1   Propulsion     The MSL propulsion subsystem comprises two independently operated
                       subsystems: cruise stage (CS) propulsion and the descent stage (DS).
                       The CS propulsion subsystem is used to perform attitude control and
                       delta-V functions during the cruise to Mars, while DS propulsion is
                       used to carry out a soft landing of the rover on the surface of Mars.
    2   Thermal        The flight system thermal control subsystem provides in-flight active
                       and passive thermal control hardware that maintains flight hardware
                       within allowable temperature limits during prelaunch, launch, cruise,
                       and landed operations.

    3   Telecom        All MSL communications are handled through the telecommunications
                       subsystem. This subsystem receives and demodulates uplink
                       commands, transmits science and engineering data, and provides
                       coherent two-way tracking and ranging. The telecommunications
                       subsystem is composed of a complete ultra-high frequency (UHF)
                       subsystem to handle proximity link communications with NASA assets
                       in orbit around Mars (Mars Reconnaissance Orbiter, Odyssey) and also
                       a complete X-Band subsystem that handles communications directly
                       with Earth.
                       The UHF subsystem spans the rover, DS, and the Backshell/Parachute
                       Cone Stage of MSL and is used during Entry, Descent, and Landing
                       (EDL) and rover surface operations.
                       The X-Band subsystem spans the rover, DS, Backshell/Parachute Cone
                       Stage, and CS of MSL and is used during CS, EDL, and rover surface
                       operations.
    4   Mechanical     There are three work breakdown structure elements in this category:
                       aeroshell, parachute, and motor actuators/gearboxes. The aeroshell is a
                       scaled Viking heritage heatshield and thermal protection system (TPS),
                       4.75 meters in diameter. The descent phase of MSL begins after
                       guided atmospheric entry, with the aeroshell having passed through
                       peak heating and peak deceleration.
                       Stowed at the top of the backshell is a Viking heritage parachute scaled
                       up to 22.5 meters in diameter, to accommodate the significantly heavier
                       mass of MSL. The supersonic parachute is deployed via the mortar in
                       the backshell.




REPORT NO. IG-11-019                                                                           27
                                                                                         APPENDIX C



         Task              Task Description
                           The rover mechanical subsystem provides the basis for integrating all
         (Mechanical,      of the other rover subsystems and payload elements. In addition to the
         continued)        internal and external accommodation of instruments, the mechanical
                           subsystem is responsible for the large number of deployments that
                           bring the rover to its full functionality.
     5   Payload           See Appendix B.
     6   SA/SPaH           The Sample Acquisition/Sample Processing and Handling (SA/SPaH)
                           subsystem is fully responsible for the acquisition of rock and regolith
                           samples from the Martian surface and the processing of these samples
                           into fine particles that are then distributed to the analytical science
                           instruments, SAM and CheMin. The SA/SPaH subsystem is also
                           responsible for the placement of the two contact instruments, APXS
                           and MAHLI, on rock and soil targets.
     7   Avionics          All onboard command and data handling is hosted by the avionics
                           subsystem. Avionics also contains solar power generation and all
                           onboard primary power bus regulation, motor control, pyrotechnic
                           device control, and primary power distribution functions. Its
                           performance is critical to collection, storage, processing, and
                           distribution of engineering and science data, commanding for all
                           subsystems, and attitude control during cruise, EDL, and rover surface
                           operations. It is also critical for supplying power to the entire flight
                           system.

     8   Launch Vehicle    The launch vehicle for the MSL mission will be an Atlas V (541),
                           which consists of a Common Core Booster (CCB), four solid rocket
                           boosters (SRB), and one Centaur III with a 5.4-m diameter payload
                           fairing. The Atlas V launch vehicle system is based on the 3.8-meter
                           (12.5-foot) diameter CCB powered by a single RD-180 engine. The
                           Atlas 541 is provided to NASA by United Launch Alliance. Launch of
                           the MSL spacecraft will be from Launch Complex-41 at the Cape
                           Canaveral Air Force Station in Florida. The launch services contract
                           for MSL is managed by NASA’s Launch Services Program Office at
                           Kennedy Space Center.
     9   Flight Software   The flight system software is composed of seven functional domains:
                           avionics interface, infrastructure interface, flight and ground interface,
                           guidance/navigation and control, mobility, payloads and articulation,
                           and high-level system behaviors.
                           MSL flight software (FSW) is defined as all software that executes in
                           the Rover Compute Element (RCE) flight computer. Specifically
                           excluded from this definition is device-resident firmware, software that
                           executes in the resident central processing units of the science
                           instruments, test software, simulation software, ground operations
                           software, and mission support software.



28                                                                           REPORT NO. IG-11-019
APPENDIX C



         Task                Task Description
                             The RCE is the key element of the MSL avionics subsystem, which
         (Flight Software,   entirely controls the MSL spacecraft.
         continued)
                             Rover flight software is the software in the main computer of the rover
                             that monitors the status of the flight system during all phases, checks
                             for the presence of commands to execute, maintains a buffer of
                             telemetry for transmission, performs communication functions, and
                             checks the overall health of the spacecraft.
                             Central control of the entire flight system is under control of the flight
                             software running in the RCE, the same architecture as was used for the
                             Mars Exploration Rover (MER) mission. Additionally, the internal
                             architecture of the flight software is also inherited from that mission.
    10   Assembly, Test,     This task involves flight system verification, integration, and testing.
         and Launch          Specifically, ATLO accomplishes flight system integration, assembly,
         Operations          and launch execution, as well as the planning and test procedures
         (ATLO)              associated with those activities.
    11   Testbeds            The MSL Project will have access to three system testbeds for the
                             conduct of the mission. Developed and certified prior to launch, after
                             launch, these facilities are available for the verification of uplink
                             products and procedures (often for first-time events, as well as for
                             others when time permits) as well as for troubleshooting and anomaly
                             resolution during flight operations.
                             Two of these testbeds are stationary (non-mobile) but support limited
                             surface phase testing via simulated mobility and terrain interactions
                             and instrument simulations. The higher fidelity system is named the
                             Mission System Testbed (MSTB), which has the most complete
                             complement of hardware models available.
                             An additional stationary testbed, the Flight Software Testbed
                             (FSWTB), is also available, but with some hardware components only
                             represented as software simulations.
                             The majority of launch, cruise, and EDL testing will take place on
                             these platforms. Additionally, a mobile testbed, the Vehicle System
                             Testbed (VSTB) is available for surface phase testing, including
                             mobility, of the SA/SPaH hardware and engineering models of the
                             payload instruments. The VSTB does not support launch, cruise, or
                             EDL testing.
    12   Guidance,           The flight system GN&C supports the Cruise Phase and uses the Mars
         Navigation and      Pathfinder/MER heritage star scanner and the Adcole sun sensor
         Control (GN&C)      package. Cruise navigation comprises orbit determination and
                             propulsive maneuver design. Orbit determination responsibilities
                             include determining the trajectory of the spacecraft and predicting
                             atmospheric entry condition and delivery accuracy. Propulsive
                             maneuver design responsibilities include designing trajectory



REPORT NO. IG-11-019                                                                                      29
                                                                                        APPENDIX C



          Task             Task Description
                           correction maneuvers to achieve the desired atmospheric entry
          (GN&C,           conditions and calculating mission statistical change in velocity (speed)
          continued)       and propellant requirements.
                           During approach and entry phases, GN&C will de-spin the entry body
                           and turn the capsule to the entry attitude. After successfully slowing
                           the EDL system down, the parachute is deployed, and the front
                           aeroshell is separated, the rover radar begins radar acquisition of the
                           surface and computation of relative velocity
                           GN&C for a rover may be equated to the “eyes” of the rover. The
                           rover attitude control subsystem consists of two major elements:
                           • The engineering camera subsystem, which is responsible for
                             providing the surface system with images and from which 3D terrain
                             information can be derived.
                           • The rover’s Inertial Measurement Unit, which is used to support
                             rover navigation of traverses and to estimate tilt on the Martian
                             surface.
     13   Kennedy          The MSL Flight System will arrive at Kennedy’s Payload Hazardous
          Operations       Servicing Facility in a somewhat preassembled state. The flight system
                           and mechanical and electrical ground support equipment will be
                           configured for a post-shipment system test. Following completion of
                           the system test, all flight segments will start the closeout process in
                           preparation for final flight assembly.
                           Upon completion of the rover and descent stage (DS) closeout
                           activities, the DS propellant tanks will be loaded and then the rover and
                           DS will be mated to form the powered descent vehicle (PDV). The
                           PDV is installed inside the backshell and then the heatshield is mated
                           to the backshell to form the entry vehicle (EV).
                           Once completed, the EV is mated to the CS and then the CS propellant
                           tanks are loaded. Following the execution of launch configuration
                           mass property measurements and a final limited electrical functional
                           test of the flight vehicle, the MSL spacecraft enters the Atlas launch
                           vehicle flow.
     14   Multi-Mission    This is a U.S. Department of Energy radioisotope power supply that
          Radioisotope     will generate electricity from the heat of plutonium’s radioactive decay.
          Thermoelectric   This type of power supply could give the mission an operating lifespan
          Generator        on Mars’ surface of a full Martian year (687 Earth days) or more.
          (MMRTG)




30                                                                          REPORT NO. IG-11-019
APPENDIX D




                                                                 COST PROJECTION
                                                                     APPROACHES


Approach 1

  Cost projection reflects historical increases to the scope of work, inefficiencies, and a
  performance trend factor. Our calculations are based on the cost estimates from the
  February 2009 rebaseline when the estimated cost to complete development was
  projected to be $400 million. We assumed that any changes from that estimate forward
  would be attributed to unexpected work (due to technical problems) and efficiencies in
  performance of the work. Note that the mission deliverables were not changed.

      1. Amount of work: The amount of work required to meet the established
         deliverables for work performed by JPL increased by $75 million, from
         $325 million in February 2009 to $400 million in September 2010 – a
         23.1 percent increase. We applied the same percentage increase to the initial
         budget of $400 million and concluded that the cost estimate should have been
         $492 million. [$400 million X 1.231 = $492 million]

      2. Efficiency factor: Project management’s performance measurement process
         calculated an 11 percent inefficiency rate for the Project through September 2010.
         We applied the same inefficiency factor to our adjusted cost from step 1 above.
         [$492 X 1.11 = $546 million]

      3. Performance trend factor: Project management determined that performance is
         degrading at a rate of 6.4 percent since February 2009 (date of rebaseline). We
         applied this performance trend factor to our adjusted cost from step 2 above.
         [$546 million X 1.064 = $581 million]


  Our estimate represents a rough order of magnitude considering Project management’s
  history of underestimating the work requirement. Instead of estimating work requirement
  and reserve separately, we made a projection based on total work history. Our estimate is
  not based on a scientific assessment of the work.




REPORT NO. IG-11-019                                                                          31
                                                                                      APPENDIX D



Approach 2




     (                                        (                                      )
                                                                                           )
                                                          September 2010 BCWP

                                    X
            February 2009 BAC                                 ($262 million)
              ($325 million)                               September 2010 BAC
                                                              ($401 million)

                                        September 2010 ACWP
                                            ($291 million)


        •   BAC (budgeted at completion) 2009 – the estimated cost to complete
            development at the start of the 2-year delay in February 2009.

        •   BAC 2010 – the adjusted estimated cost to complete development on September
            2010, which included adjustments to the scope of work required to meet the
            established deliverables.

        •   BCWP (budgeted cost of work performed) 2010 – the expected cost, based on the
            February 2009 cost estimate, of the work actually performed through September
            2010.

        •   ACWP (actual cost of work performed) 2010 – the actual cost of the work
            performed through September 2010.

     The objective of the computation was to determine how much it will cost to complete the
     remaining work that was initially budgeted at $400 million. Our assumption was that the
     amount of work performed included part of the initially budgeted work, unanticipated
     additional work, and cost increase. Further, on the average, the rate of cost incurred was
     even for all three parts.

        1. Determine the rate at which work is being completed. Calculated by using
           September 2010 (BCWP ÷ BAC) = .654.

        2. Determine how much of the initially budgeted work was completed, assuming
           work was performed proportionally with the total work done. Calculated by
           multiplying rate of work completed (.654) by initial budget of $326 million =
           $213 million (meaning $213 million of the initial $326 million of budgeted work
           was completed).

        3. Determine the actual cost efficiency of the work. Calculated by dividing the
           budgeted cost of the work completed by the actual cost of the work completed
           ($213 million ÷ $291 million) = .732 (meaning that for every dollar the Project
           has spent, 73.2 cents was spent on completing the planned work originally
           budgeted; the remaining 26.8 cents was attributed to price increases and to
           unanticipated work required to get the original work completed).


32                                                                         REPORT NO. IG-11-019
APPENDIX D



      4. Determine the estimated cost to complete Project development by applying the
         actual efficiency:

                          73.2                   $400 million
                          100      =      Projected cost to complete


         Or divide the initial cost to complete of $400 million by actual efficiency (.732) =
         $546 million.

      5. Apply anticipated additional price increase of 6.4 percent:
         $546 million X 1.064 = $581 million.




REPORT NO. IG-11-019                                                                            33
                       APPENDIX E




     MANAGEMENT COMMENTS




34            REPORT NO. IG-11-019
APPENDIX E




                       Enclosures
                       omitted.




REPORT NO. IG-11-019   35
                                                                               APPENDIX F




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Associate Administrator, Science Mission Directorate
     Director, Goddard Space Flight Center
     Director, Jet Propulsion Laboratory
     Program Manager, Mars Exploration Program
     Project Manager, Mars Science Laboratory

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




36                                                                    REPORT NO. IG-11-019
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Stephen Siu, Project Manager
   Gerardo Saucedo, Team Leader
   Jiang Yun Lu, Auditor
   Tiffany Xu, Auditor
   Cindy Stein, Technical Support
   Ron Yarbrough, Technical Support




REPORT NO. IG-11-019                                                         37
                                                                                          JUNE 8, 2011
                                                                       REPORT No. IG-11-019




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
